Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




LEAST COSTLY ALTERNATIVE
   POLICIES: IMPACT ON
 PROSTATE CANCER DRUGS
     COVERED UNDER
    MEDICARE PART B




                    Daniel R. Levinson
                     Inspector General

                     November 2012
                     OEI-12-12-00210
EXECUTIVE SUMMARY – LEAST COSTLY ALTERNATIVE POLICIES:
IMPACT ON PROSTATE CANCER DRUGS COVERED UNDER MEDICARE
PART B, OEI-12-12-00210

WHY WE DID THIS STUDY

Between 1995 and 2010, certain prostate cancer drugs covered under Medicare Part B
were subject to least costly alternative (LCA) policies, which based the payment amount
for a group of clinically comparable products on that of the least costly one. However, in
April 2010, LCA policies for Part B drugs were discontinued in response to a court ruling
stating that the use of an LCA policy was not authorized under Medicare law. Recently,
Congressman Ken Calvert expressed concerns that the withdrawal of LCA policies for
prostate cancer drugs may have created an unintentional incentive for physicians to
administer costlier drugs. Congressman Calvert requested an examination of the policy
withdrawal and its impact.

HOW WE DID THIS STUDY

For each quarter between the beginning of the third quarter of 2010 and the end of the
second quarter of 2011, we identified the lowest Medicare payment amount among
clinically comparable luteinizing hormone-releasing hormone (LHRH) agonists used to
treat prostate cancer and calculated the amount that Medicare would have saved if the
more expensive LHRH agonists had been reimbursed at these lower amounts. To
determine whether the withdrawal of LCA policies affected utilization patterns for LHRH
agonists, we tracked quarterly shifts in utilization from 1 year before the policies were
withdrawn to 1 year after.

WHAT WE FOUND

If LCA policies for LHRH agonists had not been rescinded, Medicare expenditures would
have been reduced by $33.3 million over 1 year, from $264.6 million to $231.3 million.
After LCA policies were removed, utilization patterns shifted dramatically in favor of
certain costlier products. However, the overall utilization of LHRH agonists to treat
prostate cancer has been decreasing, a trend that began at least 1 year prior to elimination
of LCA policies and continued for more than a year after.

WHAT WE RECOMMEND

Our results indicate that Medicare spending for LHRH agonists is higher in the absence
of LCA policies. We also confirmed changes in utilization patterns for LHRH agonists,
some of which appear to have occurred independently of LCA policies and some of
which coincided with their removal. LCA policies may be a useful tool for conserving
taxpayer funds, provided that patients retain access to appropriate care, but are not likely
to be restored without legislative action. Therefore, we recommend that the Centers for
Medicare & Medicaid Service (CMS) consider seeking legislative authority to implement
LCA policies for Part B drugs under appropriate circumstances. CMS partially concurred
with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................8
           Medicare and its beneficiaries would have saved $33 million
           in 1 year if LCA policies for LHRH agonists had not been
           rescinded ..........................................................................................8
           After LCA policies were rescinded, utilization patterns shifted
           dramatically in favor of certain costlier products ............................8
           However, the overall utilization of LHRH agonists has been
           steadily decreasing ...........................................................................9
Conclusion and Recommendation .............................................................12
           Agency Comments and Office of Inspector General Response.....13
Appendix ....................................................................................................14
           A: Agency Comments ...................................................................14
Acknowledgments......................................................................................15
                   OBJECTIVES
                   1. To determine the financial impact of rescinding least costly alternative
                      (LCA) policies for certain prostate cancer drugs covered under
                      Medicare Part B.
                   2. To determine how Medicare Part B utilization for certain prostate
                      cancer drugs changed after the LCA policies were rescinded.

                   BACKGROUND
                   Between 1995 and 2010, certain drugs covered under Medicare Part B
                   were subject to LCA policies, which based the payment amount for a
                   group of clinically comparable drugs on that of the least costly one.
                   However, in April 2010, the Centers for Medicare & Medicaid Services
                   (CMS) discontinued all LCA policies for Part B drugs in response to a
                   December 2009 court ruling that considered the use of an LCA policy for
                   a Part B-covered inhalation drug and found that Medicare law did not
                   authorize the use of the LCA policy. 1
                   Recently, Congressman Ken Calvert expressed concerns that the
                   withdrawal of LCA policies for certain prostate cancer drugs may have
                   created an unintentional incentive for physicians to administer costlier
                   drugs. In a letter to the Office of Inspector General (OIG), he requested an
                   examination of the policy withdrawal and its impact on pricing.
                   Medicare Part B Coverage of Prescription Drugs
                   Most outpatient prescription drugs paid for by Medicare are covered under
                   Part D; however, a limited number of drugs are covered under Medicare
                   Part B, including physician-administered injectable drugs, certain
                   self-administered oral anticancer and immunosuppressive drugs, and drugs
                   used in conjunction with durable medical equipment.
                   Medicare Part B Payments for Prescription Drugs
                   CMS contracts with private companies to process and pay Medicare
                   Part B claims, including those for covered drugs. To obtain
                   reimbursement for covered drugs, health care providers submit claims to
                   their Medicare contractors using Healthcare Common Procedure Coding




                   1
                       Hays v. Sebelius, 589 F. 3d 1279, 1283 (D.C. Cir. 2009).




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   1
                   System (HCPCS) codes. 2 In 2011, Medicare and its beneficiaries spent
                   over $12 billion for drugs covered under Part B. 3
                   Reimbursement Methodology for Most Part B Drugs
                   Since 2005, Medicare Part B has paid for most covered drugs using a
                   reimbursement methodology based on average sales prices (ASP). 4 Under
                   the ASP pricing methodology, the Medicare allowance for most Part B
                   drugs is equal to 106 percent of the volume-weighted ASP for the drug’s
                   HCPCS code. 5 Medicare beneficiaries are generally responsible for
                   20 percent of this amount in the form of coinsurance.
                   Least Costly Alternative Policies for Medicare Part B Drugs
                   Historically, Medicare contractors have established LCA policies for
                   various Part B items and services, including Part B drugs. LCA policies
                   for Part B drugs set the payment amount for a group of clinically similar
                   HCPCS codes using the ASP-based reimbursement amount for the least
                   costly drug.
                   Under these policies, Medicare would generally not cover the additional
                   cost of a more expensive drug product if a clinically comparable, lower
                   priced drug product exists; however, a beneficiary may continue to receive
                   the more expensive product, with the additional cost covered by either the
                   provider or the beneficiary. 6, 7 Beneficiaries may indicate their willingness
                   to accept financial responsibility for additional costs by signing Advanced
                   Beneficiary Notices of Noncoverage (ABN).
                   LCA policies for certain prostate cancer drugs. As part of treatment for
                   prostate cancer, many patients undergo hormone therapy, either as a


                   2
                     CMS established HCPCS codes to provide a standardized system for describing the
                   specific items and services provided in the delivery of health care.
                   3
                     Medicare expenditures for Part B drugs in 2011 were calculated using CMS’s Part B
                   Analytics and Reports (PBAR). The PBAR data for 2011 were 98 percent complete
                   when the data were downloaded in May 2012.
                   4
                     Pursuant to section 1847A(c) of the Social Security Act (the Act), an ASP is a
                   manufacturer’s sales of a drug to all purchasers in the United States in a calendar quarter
                   divided by the total number of units of the drug sold by the manufacturer in that same
                   quarter. The ASP is net of any price concessions, such as volume discounts, “prompt
                   pay” discounts, cash discounts, free goods contingent on purchase requirements,
                   chargebacks, and rebates other than those obtained through the Medicaid drug rebate
                   program. Sales that are nominal in amount are exempted from the ASP calculation, as
                   are sales excluded from the determination of “best price” in Medicaid’s drug rebate
                   program.
                   5
                     Section 1847A(b) of the Act.
                   6
                     All archived coverage documents for LHRH agonists containing LCA policies can be
                   accessed at http://coverage.cms.fu.com/mcd_archive.
                   7
                     Certain Medicare contractors may also cover the additional cost of a more expensive
                   drug under limited circumstances.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)    2
                   stand-alone treatment or in conjunction with other treatments, such as
                   radiation therapy or prostatectomy. 8 Although hormone therapy alone
                   does not cure prostate cancer, it can suppress male hormones that
                   stimulate the growth of prostate cancer cells. 9 This hormone suppression
                   is most commonly achieved by administering drugs called luteinizing
                   hormone-releasing hormone (LHRH) agonists. 10
                   In 1995, Medicare contractors began using LCA policies to control the
                   cost of LHRH agonists used to treat prostate cancer. 11 Initially, contractors
                   instituted LCA policies for two LHRH agonists that are administered as
                   monthly injections. 12 These policies set the payment amount for the more
                   expensive drug (Lupron) at the level of its lower priced alternative
                   (Zoladex). 13, 14
                   Between 2001 and 2004, four additional LHRH agonists entered the
                   prescription drug market. Contractors generally included two new
                   monthly injections, Eligard and Trelstar, in the LCA policies along with
                   Lupron and Zoladex. Most contractors established separate LCA policies
                   for the other two new LHRH agonists, Vantas and Viadur, which are
                   administered as annual implants. 15 In 2011, Medicare and its beneficiaries
                   paid approximately $289 million for all LHRH agonists, representing
                   about 2 percent of all spending on Part B drugs during that year. 16



                   8
                     Prostate Cancer Detailed Guide. American Cancer Society. Accessed at
                   http://www.cancer.org on August 17, 2012.
                   9
                     Ibid.
                   10
                      Increased health risks associated with hormone therapy, including LHRH agonists,
                   may include anemia, loss of bone density, diabetes, vascular problems, and colorectal
                   cancer.
                   11
                      Medicare Payment Advisory Commission. Report to the Congress: Impact of Changes
                   in Medicare Payments for Part B Drugs (January 2007). Accessed at
                   http://www.medpac.gov on August 17, 2012.
                   12
                      For example, see Local Medical Review Policy for Leuprolide Acetate (Lupron) and
                   Goserelin Acetate (Zoladex), Document ID L7657 (Retired), National Government
                   Services, Inc. Accessed at http://coverage.cms.fu.com/mcd_archive on August 17, 2012.
                   13
                      Zoladex is administered as a small implant that is injected under the skin of the
                   stomach. For the purposes of this report, we will consider Zoladex to be an injection.
                   14
                      The LHRH agonists included in these LCA policies are represented by more than one
                   HCPCS code and marketed by different manufacturers. Therefore, the ASPs (and
                   ASP-based payment amounts) may differ.
                   15
                      In December 2007, Bayer announced that it would phase out marketing of Viadur in
                   April 2008, citing diminished market demand and growing manufacturing costs. The
                   other LHRH agonist administered as an annual implant, Vantas, continues to be
                   manufactured by Endo Pharmaceuticals.
                   16
                      Medicare expenditures for LHRH agonists in 2011 were calculated using PBAR data
                   that were 98 percent complete when the data were downloaded in May 2012.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   3
                   According to LCA policies for LHRH agonists, there is no difference in
                   effectiveness among LHRH agonists used to treat prostate cancer; 17 a 2010
                   study published in the Journal of the National Cancer Institute concluded
                   that decreased physician reimbursement for hormone therapy was
                   associated with a reduction in overtreatment without a reduction in needed
                   services. 18 However, some advocacy groups have voiced opposition to
                   LCA policies, stating that they drive providers to base treatment decisions
                   on cost rather than on clinical factors, such as an individual patient’s
                   response to a drug or its side effects. 19 Others have expressed concern that
                   LCA policies would ultimately push patients toward less expensive but
                   more invasive methods for achieving hormone suppression, such as simple
                   orchiectomy (i.e., the surgical removal of one or both testicles).
                   Proposed LCA policies for inhalation drugs. In April 2008, certain
                   Medicare contractors proposed instituting LCA policies for Xopenex and
                   DuoNeb, two Part B-covered inhalation drugs used to treat chronic
                   obstructive pulmonary disease and other lung diseases due to external
                   agents. 20 LCA policies for these inhalation drugs were scheduled to take
                   effect July 1, 2008. However, after separate lawsuits were filed regarding
                   LCA policies for Xopenex and Duoneb, the LCA policies for Xopenex
                   were withdrawn and implementation of the LCA policies for DuoNeb was
                   delayed pending further review by CMS.
                   Elimination of LCA policies for Part B drugs. In October 2008, the U.S.
                   District Court for the District of Columbia ruled that the Secretary of
                   Health and Human Services was required by statute to pay for
                   Part B-covered drugs such as DuoNeb based on ASP and therefore lacked
                   legal authority under Medicare law to establish LCA policies for
                   DuoNeb. 21 This prompted CMS to withdraw the proposed policies for that
                   drug. The U.S. Court of Appeals for the District of Columbia Circuit
                   upheld the lower court’s decision in December 2009, ruling that Medicare

                   17
                     For example, see Local Coverage Determination for Gonadotropin-Releasing
                   Hormone Analogs, Document ID L17602 (Superseded), NHIC Corp. Accessed at
                   http://coverage.cms.fu.com/mcd_archive on August 17, 2012.
                   18
                      Sean P. Elliott et al., “Reduction in Physician Reimbursement and Use of Hormone
                   Therapy in Prostate Cancer,” Journal of the National Cancer Institute, 102, no. 24
                   (2010): 1826.
                   19
                      Prostate Cancer Groups Demand Doctors and Patients Given Control Over Patients’
                   Prostate Cancer Treatment. Men’s Health Network press release (published
                   October 30, 2006). Accessed at http://www.ustoo.org on August 17, 2012.
                   20
                      The unimplemented LCA policies for inhalation drugs can be found in the revision
                   histories of contractors’ current coverage documents for nebulizers, available online at
                   http://www.cms.gov/medicare-coverage-database. For example, see Local Coverage
                   Determination for Nebulizers, ID Number L11499, NHIC Corp.
                   21
                      Hays v. Leavitt, 583 F. Supp. 2d 62, 72 (D.D.C. 2008).




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)     4
                   law did not authorize LCA policies for DuoNeb. 22 In April 2010, CMS
                   directed contractors to discontinue all LCA policies for Part B drugs. 23 At
                   that time, LHRH agonists were among the few Part B drugs widely subject
                   to LCA policies. 24
                   Previous OIG Work
                   According to an OIG report released in January 2004, Medicare
                   contractors in all but 10 of 57 jurisdictions had LCA policies for Lupron
                   and Zoladex in 2002. 25 If the 10 remaining contractors had applied similar
                   LCA policies during that year, payments for the 2 drugs would have been
                   reduced by 27 percent, saving Medicare and its beneficiaries $40 million.
                   OIG recommended that CMS encourage all Medicare contractors to apply
                   LCA policies to Lupron. In response, CMS agreed to facilitate
                   communication between contractors that had adopted LCA policies and
                   those that had not. By 2010, Medicare contractors in all States and the
                   District of Columbia had LCA policies for LHRH agonists.


                   METHODOLOGY
                   Data Collection
                   Medicare Part B Payment Amounts. We obtained the published Medicare
                   payment amounts for LHRH agonists for each quarter between the second
                   quarter of 2009 and the second quarter of 2011. Because one of the two
                   LHRH agonists administered as annual implants has been discontinued
                   (thus leaving no “alternative”), we examined payment amounts only for
                   those HCPCS codes representing LHRH agonists administered as monthly
                   injections, as shown in Table 1.
                   Table 1: HCPCS Codes Subject to LCA Policies for LHRH Agonists
                   Administered as Monthly Injections
                        HCPCS Code      Description                                           Brand Name

                        J3315           Triptorelin pamoate                                   Trelstar

                        J9202           Goserelin acetate implant                             Zoladex

                        J9217           Leuprolide acetate suspension                         Lupron, Eligard
                   Source: CMS’s Medicare Part B reimbursement files.


                   22
                      Hays v. Sebelius, 589 F. 3d 1279, 1283 (D.C. Cir. 2009).
                   23
                      See, for example, May 2010 LCA Updates, NHIC Corp. (published April 29, 2010).
                   Accessed at http://www.medicarenhic.com on August 17, 2012.
                   24
                      Prior to April 2010, LCA policies were also applied to liposomal amphotericin B used
                   in conjunction with external infusion pumps. However, Medicare expenditures for these
                   drugs were very low relative to those for LHRH agonists, totaling only about $2.7 million
                   in 2011.
                   25
                      OIG, Medicare Reimbursement for Lupron, OEI-03-03-00250, January 2004. This
                   report was issued prior to implementation of ASP-based reimbursement for Medicare
                   Part B drugs.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)       5
                   Medicare Part B Claims Data. For each of the HCPCS codes in Table 1,
                   we obtained all of the claims paid by contractors for dates of service
                   between April 1, 2009, and June 30, 2011. We selected all claims
                   associated with prostate cancer (specifically, diagnosis code 185,
                   malignant neoplasm of the prostate) and summarized expenditures and
                   utilization for each HCPCS code in each quarter under review. 26, 27
                   We also obtained all of the claims for Vantas annual implants (HCPCS
                   code J9225) and simple orchiectomies (procedure code 54520) with dates
                   of service between April 1, 2009, and June 30, 2011. For each HCPCS
                   code, we selected all paid claims associated with prostate cancer
                   (diagnosis code 185) and summarized expenditures and utilization for
                   each quarter under review. 28
                   Data Analysis
                   Analysis of expenditures for LHRH agonists previously subject to LCA
                   policies. For each quarter between the third quarter of 2010 and the
                   second quarter of 2011, 29 we identified the lowest of the Medicare
                   payment amounts for the three HCPCS codes representing monthly
                   injections (Table 1). To calculate the amount that Medicare would have
                   saved if payment amounts had been based on the LCA, we multiplied the
                   least costly amounts by the utilization for each of the more expensive
                   drugs and subtracted the result from the actual expenditures for the drugs.
                   Analysis of utilization trends for LHRH agonists and other hormone
                   therapy. To determine whether the withdrawal of LCA policies coincided
                   with changes in utilization patterns for monthly injections, we used
                   summarized Part B claims data to track quarterly shifts in utilization from

                   26
                      Although certain Medicare contractors applied their LCA policies to more than one
                   prostate cancer diagnosis code, we focused our analysis on diagnosis code 185, which
                   appeared most frequently in contractors’ LCA policies and accounted for 98 percent of
                   the Medicare payments for all LHRH agonists during the period under review.
                   27
                      We excluded any individual claim for more than six doses because such claims may
                   represent billing errors. Individual claims for more than six doses constitute only
                   0.01 percent of all claims for monthly injections. We also excluded any claim with a
                   modifier indicating that the beneficiary signed an ABN and therefore accepted financial
                   responsibility for noncovered costs. Only about 0.6 percent of all paid claims for
                   monthly injections used to treat prostate cancer had modifiers indicating that ABNs had
                   been filed.
                   28
                      For Vantas implants, we excluded any individual claim for more than one dose because
                   we would generally expect providers to bill for only one annual implant at a time. We
                   also excluded any claim with a modifier indicating that the beneficiary signed an ABN
                   and therefore accepted financial responsibility for noncovered costs. Only about
                   0.3 percent of all paid claims for Vantas implants used to treat prostate cancer had
                   modifiers indicating that ABNs had been filed.
                   29
                      This time period represents the first full year following the withdrawal of LCA policies
                   for prostate cancer drugs.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   6
                   1 year before the LCA policies were withdrawn (i.e., the second quarter of
                   2009) to 1 year after (i.e., the second quarter of 2011).
                   As points of comparison for trends in the utilization of monthly injections,
                   we also tracked quarterly shifts in utilization for Vantas implants and
                   simple orchiectomies from the second quarter of 2009 through the second
                   quarter of 2011.
                   Limitations
                   Medicare contractors’ LCA policies for LHRH agonists varied with
                   respect to certain criteria, such as the specific diagnosis codes subject to
                   the policies and whether the contractors made exceptions for patients who
                   had been receiving a more expensive drug prior to implementation of the
                   policies. We did not tailor our analysis to account for all policy variations
                   among contractors; rather, our analysis is based on the criteria common
                   among the majority of LCA policies.
                   There may be instances in which LCA policies would not have generated
                   savings for Medicare and its beneficiaries because the contractors, the
                   providers, or the patients opted to pay for the additional cost of the more
                   expensive drugs. To address this issue, we excluded claims with modifiers
                   indicating that the beneficiaries signed ABNs and accepted financial
                   responsibility for noncovered amounts. However, we did not identify or
                   exclude claims for more expensive drugs for which the contractors or
                   providers may have covered the additional cost.
                   We did not review the Part B claims for accuracy, nor did we review any
                   documentation in support of the claims included in our study. Also, we
                   did not examine utilization trends for additional types of hormone therapy
                   used to treat prostate cancer, such as LHRH antagonists, antiandrogens,
                   and estrogens. We also did not examine trends in other prostate cancer
                   treatments, such as chemotherapy, radiation therapy, or prostatectomy.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   7
                   FINDINGS
                   Medicare and its beneficiaries would have saved
                   $33 million in 1 year if LCA policies for LHRH agonists
                   had not been rescinded
                   If LCA policies had been in effect between the third quarter of 2010 and
                   the second quarter of 2011, payment amounts for Lupron, Eligard, and
                   Zoladex would have been based on that of the least costly alternative,
                   Trelstar. As shown in Table 2, the potential savings per dose in each
                   quarter would have ranged from $1.61 to $33.49 for Zoladex and from
                   $17.70 to $40.85 for Lupron and Eligard.
                   If the more expensive products had been reimbursed at the lower price in
                   each quarter under review, total expenditures for monthly injections over
                   the year period would have been reduced from $264.6 million to
                   $231.3 million, yielding a total savings of $33.3 million (13 percent).
                   Twenty percent of these savings ($6.7 million) would have been realized
                   by Medicare beneficiaries in the form of reduced coinsurance amounts.
                   Table 2: Payment Amounts for Monthly Injections
                                                                    Third           Fourth             First           Second
                        HCPCS                                     Quarter          Quarter           Quarter           Quarter
                        Code           Brand                        2010              2010             2011              2011
                        Payment Amounts for the Least Costly Product

                        J3315          Trelstar                   $164.59          $181.93           $176.27           $197.31

                        Additional Amounts Paid for More Expensive Products

                        J9202          Zoladex                   + $33.49          + $12.36          + $26.08           + $1.61

                        J9217          Lupron, Eligard           + $40.85          + $26.28          + $32.83         + $17.70

                   Source: Medicare reimbursement amounts published by CMS for third quarter 2010 through second quarter 2011.


                   After LCA policies were rescinded, utilization patterns
                   shifted dramatically in favor of costlier drugs
                   During the year before LCA policies were rescinded, the most costly
                   LHRH monthly injections—Lupron and Eligard—were administered at
                   about twice the rate of the least costly alternative, Trelstar (Figure 1). 30
                   However, utilization of these pricier drugs was declining during this time,
                   decreasing 11 percent from the second quarter of 2009 through the first



                   30
                     As mentioned previously, LCA policies do not require that the least costly drug be
                   administered; they require only that payment for the more expensive drugs be limited to
                   that of the least costly drug.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)                        8
                   quarter of 2010. Meanwhile, utilization of Trelstar was rising, increasing
                   almost 5 percent over the same four quarters.
                   Figure 1: Utilization of Monthly Injections Before and After Removal of LCA
                   Policies

                                                                   Lupron/Eligard   Trelstar          Zoladex


                      Total Doses (Monthly Injections)
                                                         300,000

                                                         250,000

                                                         200,000

                                                         150,000

                                                         100,000

                                                          50,000

                                                              0




                   Note: Data points for each quarter represent the total utilization as of the end of that quarter. The vertical line
                   distinguishes utilization under LCA policies from utilization after LCA policies were removed.
                   Source: OIG analysis of Medicare Part B claims data, 2012.

                   As shown in Figure 1, utilization patterns for monthly injections shifted
                   dramatically in favor of the costlier products almost immediately after
                   LCA policies were rescinded. Utilization of Lupron and Eligard increased
                   substantially, rising a total of 31 percent from the beginning of the second
                   quarter of 2010 through the end of the second quarter of 2011.
                   During the same period, the administration of Trelstar plummeted by
                   74 percent, with the largest utilization drops occurring in the quarter
                   during which the LCA policies were removed and the first full quarter
                   after. By the end of the second quarter of 2011, Lupron and Eligard were
                   administered at almost 10 times the rate of Trelstar.
                   Although the administration of Zoladex decreased over the entire
                   27 months under review, utilization remained extremely low relative to
                   utilization of Lupron; Eligard; and, to a lesser extent, Trelstar.

                   However, the overall utilization of LHRH agonists has
                   been steadily decreasing
                   Despite variations in the administration of individual LHRH agonists, the
                   number of doses of LHRH agonists administered overall for the treatment
                   of prostate cancer began decreasing at least a year before CMS instructed
                   contractors to rescind LCA policies and continued to fall for more than a




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)                                9
                   year afterward. This downward trend was evident not only for the more
                   commonly administered monthly injections, but also for annual implants.
                   Figure 2: Decrease in Utilization of Monthly Injections To Treat Prostate
                   Cancer

                                                         370,000


                      Total Doses (Monthly Injections)   360,000

                                                         350,000

                                                         340,000

                                                         330,000

                                                         320,000

                                                         310,000




                   Note: Data points for each quarter represent the total utilization as of the end of that quarter. The vertical line
                   distinguishes utilization under LCA policies from utilization after LCA policies were removed.
                   Source: OIG analysis of Medicare Part B claims data, 2012.

                   The number of monthly injections used to treat prostate cancer decreased
                   about 7 percent during the year before elimination of LCA policies and
                   continued to decrease another 5 percent in the 15 months after, resulting in
                   an overall decrease of 12 percent from the second quarter of 2009 through
                   the second quarter of 2011. (See Figure 2.)
                   The overall decrease in the administration of the annual Vantas implant
                   was even more pronounced. The number of these implants used to treat
                   prostate cancer fell by 23 percent in the year prior to elimination of LCA
                   policies and continued to fall another 23 percent in the 15 months after,
                   resulting in an overall decrease of 41 percent.
                   Although the use of LHRH agonists has been decreasing, we did not find a
                   compensatory increase in another type of hormone therapy, the simple
                   orchiectomy. The number of these procedures performed to treat prostate
                   cancer declined 15 percent during the year before the elimination of LCA
                   policies and continued to decline an additional 16 percent afterward.
                   A study published in 2009 in The Journal of Urology identified a similar
                   reduction in the use of hormone therapy to treat prostate cancer. This
                   study, which examined claims and payment data from 2003 to 2007,
                   attributed the overall reduction in hormone therapy to a number of
                   different factors, including a decrease in Medicare payment amounts
                   following the implementation of the ASP-based reimbursement


Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)                                10
                   methodology, the increased use of intermittent hormone therapy, and an
                   increased recognition of the adverse effects associated with hormone
                   therapy. 31, 32 The study authors conclude that these factors, taken together,
                   may have resulted in a more discriminating physician practice pattern and
                   shrinking pool of appropriate candidates for LHRH agonists.




                   31
                      Steven L. Chang, Joseph C. Liao, and Rajesh Shinghal, “Decreasing Use of Luteinizing
                   Hormone-Releasing Hormone Agonists in the United States is Independent of
                   Reimbursement Changes: A Medicare and Veterans Health Administration Claims
                   Analysis,” The Journal of Urology 182 (2009): 255.
                   32
                      As mentioned previously, increased health risks associated with hormone therapies
                   may include anemia, loss of bone density, diabetes, vascular problems, and colorectal
                   cancer.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   11
                   CONCLUSION AND RECOMMENDATION
                   In 1995, Medicare contractors began using LCA policies to control the
                   cost of LHRH agonists used to treat prostate cancer. However, CMS
                   eliminated these policies in April 2010 as a result of a 2009 court ruling
                   stating that Medicare law did not authorize the use of an LCA policy for
                   an inhalation drug covered under Medicare Part B. Congressman
                   Ken Calvert subsequently raised concerns that elimination of LCA
                   policies for prostate cancer drugs may have provided physicians with an
                   incentive to administer costlier drugs to patients.
                   Our results indicate that Medicare spending on clinically comparable
                   LHRH agonists is higher in the absence of LCA policies, costing Medicare
                   and its beneficiaries $33 million in 1 year. Our results also confirm
                   changes in utilization patterns for LHRH agonists, some of which appear
                   to have occurred independently of LCA policies and some of which
                   coincided with their removal. Specifically, the use of hormone therapy
                   has been decreasing overall, which may be attributable in part to Medicare
                   reimbursement but may also be influenced by clinical factors, such an
                   increased awareness of hormone therapy’s health risks. In contrast, the
                   shift in utilization patterns in favor of costlier products coincided directly
                   with the removal of LCA policies.
                   LCA policies may be a useful tool for conserving taxpayer funds, provided
                   that patients retain access to appropriate care; however, in light of the
                   2009 court ruling, LCA policies are not likely to be restored without
                   legislative action. Therefore, we recommend that CMS:
                   Consider seeking legislative authority to implement LCA
                   policies for Part B drugs under appropriate circumstances
                   By seeking a legislative change to amend the current statutory Medicare
                   provisions applicable to Medicare Part B drugs, CMS could regain the
                   flexibility to implement LCA policies for certain clinically comparable
                   products under circumstances it deems appropriate.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   12
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred, in part, with the recommendation. CMS stated that it has
                   evaluated its current authority in light of the court ruling and determined
                   that further legislative action on this issue must occur before any LCA
                   policies can be implemented. CMS additionally noted that any request for
                   legislative authority for agency policies would be included in the annual
                   President’s Budget. However, CMS did not indicate whether it plans to
                   seek such legislative authority consistent with our recommendation.
                   We did not make any changes to the report on the basis of CMS’s
                   comments. We ask that, in its final management decision, CMS more
                   clearly indicate whether it concurs with our recommendation and what
                   steps, if any, it will take to implement it.
                   For the full text of CMS’s comments, see Appendix A.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   13
                              APPENDIXAA
                             APPENDIX
                             AgencyComments
                             Agency Comments



   (:J-
     /"""ct.
    """•••


  (::/-
               .•.,
         "co..•••

                        DEPARTMENTOF
                       DEPARTMENT  OFHBALm
                                      HEALTit&&HUMAN
                                                HUMANSERVICES
                                                      SERVICES                                                Centers for MediCare & Medicaid Services
                                                                                                             Centers for MediCar. & Medicaid Services


                                                                                                              Administrator
                                                                                                             Administrator
                                                                                                              Washington, DC 20201
                                                                                                             Washington,   DC 20201




                       DATE:            SEP        2012
                                         SEP 282 82012
                      DATE:

                       TO:
                      TO:              Stuart Wright
                                       D puty Inspector General for Evaluations and Inspections

                       FROM:
                      FROM:            Marilyn Tavenner
                                       Acting Administ tor

                       SUBJECT: Office
                      SUBJECT:   OfficeofofInspector
                                            InspectorGeneral
                                                      GeneralDraft
                                                              DraftReport:
                                                                    Report: "Least
                                                                             "LeastCostly
                                                                                    CostlyAlternative
                                                                                           AlternativePolicies:
                                                                                                       Policies:
                                 Impacton
                                Impact   onProstate
                                             ProstateCancer
                                                      CancerDrugs
                                                             DrugsCovered
                                                                    CoveredUnder
                                                                             UnderMedicare"
                                                                                    Medicare"(OEI-12-12-00210)
                                                                                               (OEI-12- 12-0021 0)


                       TheCenters
                      The    Centersfor   Medicare&&Medicaid
                                      forMedicare      MedicaidServices
                                                                 Services(CMS)
                                                                          (CMS)appreciates
                                                                                 appreciatesthe
                                                                                              theopportunity
                                                                                                  opportunitytotoreview
                                                                                                                  reviewand
                                                                                                                         and
                       respondtotothe
                      respond       theOffice
                                        OfficeofofInspector
                                                   InspectorGeneral
                                                             General(DIG)
                                                                     (OIG)Draft
                                                                           DraftReport
                                                                                 Reportentitled,
                                                                                        entitled,"Least
                                                                                                  "LeastCostly
                                                                                                          CostlyAlternative
                                                                                                                  Alternative
                       Policies: Impact
                      Policies:    ImpactononProstate
                                              ProstateCancer
                                                        CancerDrugs
                                                               DrugsCovered
                                                                      CoveredUnder
                                                                              UnderMedicare."
                                                                                    Medicare." CMS CMSappreciates     OIG's
                                                                                                         appreciatesOIG's
                       efforttotoexamine
                      effort      examinethis
                                           thisissue.
                                                issue.

                      InIn1995,
                           1995,Medicare
                                   Medicarecontractors
                                               contractorsbegan
                                                            beganusing
                                                                    usingleast
                                                                           leastcostly
                                                                                 costlyalternative
                                                                                         alternative(LCA)
                                                                                                      (LCA)policies
                                                                                                                policiestotocontrol
                                                                                                                             controlthe
                                                                                                                                     the
                        costofofluteinizing
                      cost       luteinizinghormone-releasing
                                               hormone-releasinghormone
                                                                     hormoneagonists
                                                                                agonlstsused
                                                                                          usedininthe
                                                                                                   thetreatment
                                                                                                        treatmentofofprostate
                                                                                                                       prostatecancer.
                                                                                                                                  cancer.
                        However,CMS
                      However,       CMSeliminated
                                            eliminatedthese
                                                        thesepolicies
                                                               policiesininApril
                                                                            April2010          resultofofaa2009
                                                                                   2010asasaaresult         2009court
                                                                                                                   courtruling
                                                                                                                          rulingthat
                                                                                                                                 that
                        foundthat
                      found     thatMedicare
                                     Medicarelaw lawdid
                                                     didnot
                                                          notauthorize
                                                               authorizethe
                                                                          theuse
                                                                              useofofananLCA
                                                                                          LCApolicy
                                                                                                 policyfor
                                                                                                         forananinhalation
                                                                                                                 inhalationdrug
                                                                                                                              drug
                        coveredunder
                      covered      underMedicare
                                          MedicarePart            memberofofCongress
                                                     PartB.B. AAmember         Congresssubsequently
                                                                                           subsequentlyraised
                                                                                                            raisedconcerns
                                                                                                                    concernsthat
                                                                                                                               thatthe
                                                                                                                                    the
                      elimination      ofLCApolicies
                        eliminationofLCA        policiesfor
                                                          forprostate
                                                              prostatecancer
                                                                        cancerdrugs
                                                                                 drugsmay
                                                                                        mayhave
                                                                                             haveprovided
                                                                                                    providedphysicians
                                                                                                                physicianswith
                                                                                                                             withanan
                        incentivetotoadminister
                      incentive        administercostlier
                                                    costlierdrugs
                                                             drugstotopatients.
                                                                       patients.

                       OIGRecommendation
                      OIG  Recommendation

                       Considerseeking
                      Consider    seekinglegislative
                                          legislativeauthority
                                                      authoritytotoimplement
                                                                    implementLCA
                                                                              LCApolicies
                                                                                  policiesfor
                                                                                           forPart
                                                                                               PartBBdrugs
                                                                                                      drugsunder
                                                                                                            under
                       appropriatecircumstances.
                      appropriate   circumstances.

                       CMSResponse
                      CMS  Response

                      CMS     concurs,ininpart,
                       CMSconcurs,           part,with
                                                   withthe
                                                         therecommendation.
                                                             recommendation. CMS   CMShas hascompleted
                                                                                              completedevaluating
                                                                                                          evaluatingitsitscurrent
                                                                                                                           current
                      authority       lightofofthe
                       authorityininlight       theDecember
                                                     December20092009court
                                                                       courtruling.
                                                                              ruling. eMS
                                                                                        CMShashasdetermined
                                                                                                  determinedthat
                                                                                                              thatfurther
                                                                                                                   further
                       legislativeaction
                      legislative   actionon onthis
                                                 thisissue
                                                      issuemust
                                                             mustoccur
                                                                  occurbefore
                                                                          beforeititcan
                                                                                     canimplement
                                                                                         implementanyanyLCA
                                                                                                          LCApolicies.
                                                                                                               policies. We Wenote
                                                                                                                                 note
                        thatany
                      that   anyrequest
                                  requestfor
                                           forlegislative
                                                legislativeauthority
                                                             authorityfor
                                                                       forAgency
                                                                           Agencypolicies
                                                                                      policieswould
                                                                                               wouldbebeincluded
                                                                                                         includedininthetheannual
                                                                                                                            annual
                        President'sBudget.
                      President's    Budget.

                       CMSthanks
                      CMS  thanksthe
                                  theOIG
                                      OIGfor
                                          forthe
                                              theopportunity
                                                  opportunitytotoreview
                                                                  reviewand
                                                                         andcomment  onthis
                                                                             commenton  thisreport.
                                                                                             report.




 LeastCostly
Least  CostlyAlternative
              AlternativePolicies:
                          Policies: Impact
                                     Impacton
                                            onProstate
                                               ProstateCancer
                                                        CancerDrugs
                                                               DrugsCovered
                                                                     CoveredUnder
                                                                             UnderPart
                                                                                   PartBB(OEI-12-12-00210)
                                                                                          (OEI-12-12-0021 0)                                              14
                                                                                                                                                         14
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and David Tawes, Regional Inspector General for
                   Evaluation and Inspections in the Baltimore regional office.
                   Lauren McNulty served as the team leader for this study. Central office
                   staff who provided support include Althea Hosein, Meghan Kearns,
                   Christine Moritz, and Tasha Trusty.




Least Costly Alternative Policies: Impact on Prostate Cancer Drugs Covered Under Part B (OEI-12-12-00210)   15
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
